OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ECUADOR’S
SUSTAINABLE FORESTS AND
COASTS PROGRAM
AUDIT REPORT NO. 1-518-14-012-P
JULY 31, 2014




SAN SALVADOR, EL SALVADOR 

Office of Inspector General


July 31, 2014

MEMORANDUM

TO:      	         USAID/Ecuador Mission Director, Christopher Cushing
                   USAID/M/OAA/P Division Chief, Marcelle Wijesinghe

FROM: 	            Acting Regional Inspector General/San Salvador, David Clark /s/

SUBJECT:	          Audit of USAID/Ecuador’s Sustainable Forests and Coasts Program
                   (Report No. 1-518-14-012-P)

This memorandum transmits our final report on the subject audit. We considered your
comments on the draft report and included them in their entirety in Appendix II of this report.

This report contains three recommendations to help improve USAID’s reporting regarding
challenges encountered and resources leveraged. Your written comments in response to the
draft report indicate that you made management decisions on all three. Please provide the Audit
Performance and Compliance Division in the USAID Office of the Chief Financial Officer with
the necessary documentation to achieve final action.

Thank you and your staff for the cooperation and assistance extended to us during this audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov/
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 3 


     Program Did Not Deliver the Economic Benefits Anticipated.................................................. 3 


     Implementer Overstated Leverage by 63 Percent ................................................................. 5 


Evaluation of Management Comments..................................................................................... 7 


Appendix I—Scope and Methodology ...................................................................................... 8 


Appendix II—Management Comments ................................................................................... 10 


Appendix III—Program Areas in Ecuador............................................................................... 13 

SUMMARY OF RESULTS 

Ecuador is known for both its biological diversity and its dramatic rate of deforestation. The
Food and Agriculture Organization of the United Nations ranked Ecuador 14th highest in the
world in average annual reduction in forests in 2010. The country’s forests, including coastal
mangroves that shelter fish and other organisms and reduce erosion caused by tides and
storms, are threatened by agricultural expansion, illegal logging, and climate change.1

Despite having protected areas, Ecuador has not managed them well. To strengthen the
Government of Ecuador’s efforts in protected areas, on June 15, 2009, USAID/Ecuador
awarded Chemonics a 5-year cost-plus-fixed-fee contract for the Sustainable Forests and
Coasts Program.2 It sought to improve biodiversity conservation in critical habitats while
improving local livelihoods in target communities through activities linked to conservation goals.
In addition, the program sought to develop conservation partnerships with local organizations.
The program’s total estimated cost through June 2014 was $15.8 million. As of December 31,
2013, $15.0 million had been obligated, and $13.2 million spent.

The Regional Inspector General/San Salvador conducted this audit to determine whether
USAID/Ecuador’s Sustainable Forests and Coasts Program was achieving its main goal of
conserving biodiversity to benefit residents in coastal Ecuador and adjacent forests by
establishing long-term partnerships with local organizations.

The audit verified that the mission was achieving its main goals related to conserving
biodiversity and developing partnerships for conservation. Specifically, the audit team noted the
following accomplishments:

	 The program completed studies that provide data critical to managing the supply of crabs in
   the Gulf of Guayaquil and developed case studies that can benefit other regions and
   resources.

	 USAID closely collaborated with the Ministry of Environment on many activities, including
   those to strengthen its strategic planning and oversight, improve management policies, and
   expand environmental education. The mission has supported the ministry’s successful Socio
   Bosque3 Program by helping rural communities meet requirements for participation. These
   include obtaining land titles and preparing plans detailing how the communities will use the
   cash payments they receive.

	 The program has strong support at the local, regional, and national levels of Ecuadorian
   government and has developed excellent relationships with implementing organizations and
   project beneficiaries. The latter group previously did not feel included in planning community
1
  EcoDecision, “ECUADOR: An overview from the REDD Countries Database,” April 2012. REDD stands
for Reducing Emissions from Deforestation and Degradation, a collaborative initiative launched by the
United Nations.
2
    Federal Acquisition Regulation 16.306 defines this type of contract and its purpose.
3
  USAID/Ecuador’s 2013 Performance Plan Report characterizes Socio Bosque as a “cash-for-
conservation program.” It pays individuals and communities that sign a 20-year agreement with the
Ministry of the Environment to conserve forests.


                                                                                                   1
    activities. The audit team noted that USAID’s partners and beneficiaries appreciated the
    program’s flexibility in responding to the communities’ needs. For example, some
    communities requested equipment to boost production of various goods, and the project
    promised to deliver it.

	 The program built or strengthened several networks and coalitions, which are positioned to
   continue activities that promote their constituents’ interests.

The program was less successful at improving local livelihoods in target communities through
activities linked to conservation goals, as noted below.

	 The program did not deliver the economic benefits anticipated in the contract (page 3). In
   many cases, the program did not appreciably increase incomes per person through direct
   assistance in the five value chains, and it did not establish strong commercial links.

	 Chemonics overstated leverage4 by 63 percent and misclassified public resources as private
   resources (page 5). Chemonics was unable to create strong private sector alliances, as
   envisioned in the contract.

The audit recommends that USAID/Ecuador and USAID’s Policy Division of the Office of
Acquisition and Assistance take the following steps to improve the effectiveness of the program
and mission operations:

1. 	Document in its final report the challenges that this program faced in improving
    livelihoods, and upload the evaluation to the Development Experience Clearinghouse
    (page 5).

2. 	In conjunction with Chemonics, (1) update the definition of the leverage indicator to
    include only resources leveraged during the life of the program, (2) classify nonprofits as
    public institutions and for-profits as private institutions, (3) disaggregate private and
    public resources leveraged when reporting, and (4) report revised figures in its final
    report (page 6).

3. 	 Update the Automated Directives System (ADS) Chapters 302 and 303 to include clear
     definitions and criteria for identifying and classifying leverage under contracts outside of
     formal Global Development Alliance activities (page 6).

Detailed findings appear in the following section. The scope and methodology are described in
Appendix I. Management comments appear in their entirety in Appendix II, and our evaluation of
management comments is on page 7.




4
 Leverage refers to resources that an implementer mobilizes from entities other than the U.S.
Government to offset project or program costs.


                                                                                                    2
AUDIT FINDINGS
Program Did Not Deliver the
Economic Benefits Anticipated
According to the contract, Chemonics would improve local livelihoods in target communities
through activities linked to conservation goals:

	 Provide economic benefits to 10,000 individuals by the end of fiscal year 2013, primarily by
   developing five value chains5—agriculture, fisheries, wood products, nontimber forest
   products, and tourism—that could increase incomes while still protecting national resources.

	 Seek opportunities to develop other environmentally friendly value chains.

	 Link 20 Ecuadorian enterprises to national, regional, and international markets for
   sustainably produced goods and services.

	 Identify partners—buyers, producers, and banks—to support these efforts.

The program allocated more than $6 million to improve livelihoods, which represents about
40 percent of the total program expenditures. According to Chemonics, the program surpassed
its target for boosting incomes and savings, providing economic benefits to 16,225 individuals.

Despite the positive reporting and the significant investment in environmentally friendly value
chains, the program created only limited economic benefits for a substantially smaller number of
beneficiaries. Most of the beneficiaries the program reported (13,465, or 83 percent) did not
receive economic benefits from direct program activities; rather, they received economic
benefits from the Government of Ecuador’s Socio Bosque Program. The program spent about
$500,000 to support Socio Bosque activities and by including a large number of Socio Bosque
beneficiaries in its reporting, the program is misrepresenting its own role in assisting the groups
targeted by the contract.

Direct beneficiaries numbered 2,760. The program spent more than $5.5 million to raise their
incomes by developing value chains, but many people realized only slight improvements. For
example, Chemonics reported that the average annual increase in income for participants
working in the forestry sector was only $53 per year. Among farmers, if one increased his
income by as little as $12 per year, the program counted this as an increased benefit for a
family of five.

Economic benefits were so small because the program was largely unable to establish
profitable, environmentally friendly economic links and value chains. None of the commercial
connections involved regional or international markets as expected by the contract, and the 20
links with local markets generated only a small amount of sales.




5
  A value chain includes all activities required to produce a good or service and deliver it to the final
customer. Value chains include activities such as production, marketing, and distribution.


                                                                                                       3
For example, as of September 2013, seven ivory palm6 trade arrangements had generated an
average of only $892 in increased sales per enterprise. This small increase was shared by
dozens of producer families. By September 2013, nearly half of the economic links established
by the program had failed, demonstrating that developing enterprises in the targeted areas was
extremely challenging for the program.

USAID/Ecuador and Chemonics officials offered several reasons for the disappointing results:

	   The current USAID team managing the program and Chemonics said the scope of work was
     too ambitious and did not reflect the program’s challenges. The program was designed by
     USAID/Ecuador staff who had higher expectations for economic growth in the targeted
     areas. For example, the contract suggested including sales increases as an indicator, but
     these figures were so unimpressive that Chemonics did not formally track or report them. As
     another example, the program’s efforts to assist local businesses with business plans,
     financing, and facilities development have been minimal. When implementation began,
     program officials, largely environmentalists, quickly realized that the contract was too
     optimistic when their rapid assessments showed that targeted communities had very little
     potential for developing new products and engaged mostly in subsistence farming.

	   The Chemonics team was generally made up of highly qualified and experienced
     environment professionals. However, none had significant experience in business
     development, as Chemonics and USAID staff were more concerned about the project’s
     focus on conservation.

	   The targeted areas, which included remote forests and coastal areas, lack the infrastructure
     and equipment to expand their business operations and transport goods to market. For
     example, some communities are accessible only by boat or by lengthy walks. Because
     conservation is a priority, the program did not include building any infrastructure.

	   The targeted beneficiaries generally lacked formal education, business experience, and
     knowledge of best business practices. Chemonics officials believed that training them to
     become successful entrepreneurs would require more resources than were available during
     the program.

	   According to Chemonics officials, poor weather adversely affected the production of some
     items. For example, the 2011 cacao production in Esmeraldas was severely limited because
     of a drought. In 2013, inadequate rainfall dramatically reduced the harvest of high-quality
     ivory nut.

As a result, the program has not had the economic impact the contract envisioned. It did not
create much economic benefit through direct assistance in the five targeted value chains, and it
did not establish strong commercial ties. The results are particularly disappointing given the
millions of dollars allocated to these activities.

The weak program results highlight the challenges facing programs that seek to provide
economic benefits while encouraging conservation, and may offer lessons for future programs.
According to ADS 203.1, USAID missions “must strive to continuously learn and improve their
approach in achieving results.” Missions must submit evaluation reports to USAID's central

6
 Ivory palm is a South American tree whose hardened fruit, the ivory nut, is used to make buttons, beads,
and figurines.


                                                                                                       4
document repository, the Development Experience Clearinghouse, to promote the sharing of
information. To see that lessons learned from this program are shared, we make the following
recommendation.

    Recommendation 1. We recommend that USAID/Ecuador document the challenges
    faced in improving livelihoods in its final report and upload the evaluation to the
    Development Experience Clearinghouse.

Implementer Overstated Leverage by
63 Percent
According to the contract, leveraging private sector resources was an important aspect of the
program, and Chemonics was expected to develop strong, Global Development Alliance
(GDA)7-like alliances with the private sector. The contract committed Chemonics to leverage at
least $4.5 million in public and private funds, and the amount of leveraging achieved was
tracked as one of the program’s nine indicators.

As of September 30, 2013, Chemonics reported that it had leveraged $16.9 million in non-
USAID resources for the program, of which $11.7 million came from the public sector and
$5.1 million from the private sector, as shown below (difference from total due to rounding).

                 Amount Leveraged as of September 30, 2013 (Unaudited)
                                      ($ million)



                 5.1



                 11.7
                                      10.5                                   Private
                                                                             Public
                                                            0.4
                                                                             Overstated
                                                            5.9




          Amount Reported      Amount Beyond End    Amount That Should
              $16.9             of Program $10.5     Be Reported $6.3


However, these amounts significantly overstated the amount of leveraging achieved.
Chemonics counted contributions that the Government of Ecuador anticipated making over the

7
 A Global Development Alliance is a partnership between USAID and the private sector in which the
partners work together to develop and implement activities that meet the objectives of both while
advancing development.


                                                                                               5
next 20 years through the Socio Bosque Program, as well as future contributions from the Inter-
American Development Bank. According to USAID’s Acquisition and Assistance Policy
Directive 04-16, “Leveraging refers to that portion of a project or program costs not borne by the
Federal Government.” Thus, it does not include contributions that presumably will occur after
the program ends. Chemonics should have reported only contributions made during the life of
the program. Counting future contributions by the partner government assumes continued
political support and resources. As a result, Chemonics overstated the amount of actual
leverage by 62.6 percent; the amount reported should have been $6.3 million.

Furthermore, Chemonics made errors when classifying public and private leveraging achieved
by the program. Chemonics classified contributions by the Inter-American Development Bank
and other foundations as private sector contributions, when in fact these groups should have
been classified as public contributors. Resources coming from for-profit entities are private
sector, whereas resources from nonprofit entities are public. Chemonics misclassified the
amounts because USAID/Ecuador never provided Chemonics with clear definitions of public
versus private leveraging.

These problems occurred because USAID does not have clear definitions and criteria for
implementing partners to use when identifying and classifying leverage outside of formal GDA
activities. Some USAID missions have required contractors to use USAID’s leveraging
definitions from guidance related to formal GDA programs; this guidance clearly specifies that
contractors should count as leverage only new, nonpublic resources from the private sector and
other nontraditional USAID partners. However, use of this guidance is only mandatory for formal
GDA activities, which this is not. The revised results show more clearly that the program was
unable to create strong private sector alliances as envisioned in the contract. Only 6.7 percent
($420,000) of the $6.3 million in leveraged resources came from the private sector.

Chemonics met its leveraging requirement. Still, because Chemonics did not report its
leveraged resources accurately, the program is exaggerating its accomplishments. In particular,
the reporting hid the fact that private sector leveraging, expected to be a major result of the
program, was very small. Therefore, we make the following recommendations.

   Recommendation 2. We recommend that USAID/Ecuador, in conjunction with
   Chemonics, (1) update the definition of the leverage indicator to include only resources
   leveraged during the life of the program, (2) classify nonprofits as public institutions and
   for-profits as private institutions, (3) disaggregate private and public resources leveraged
   when reporting, and (4) report revised figures in its final report; it should then document
   all four actions.

To ensure that future informal GDA programs that require leverage adopt clear, standard
definitions, we also recommend that the Office of Acquisition and Assistance issue clarifying
guidance.

   Recommendation 3. We recommend that the Policy Division of the Office of Acquisition
   and Assistance update Automated Directives System Chapters 302 and 303 to include
   definitions and criteria for identifying and classifying leverage requirements in contracts
   and assistance agreements outside of formal Global Development Alliance activities.




                                                                                                  6
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Ecuador agreed with Recommendations 1 and 2, and M/OAA/P agreed with
Recommendation 3. Comments from the mission and M/OAA/P indicate they made
management decisions on all three recommendations. Our evaluation of management
comments follows.

Recommendation 1. USAID/Ecuador decided to document the challenges faced in improving
livelihoods in its final report. It intended to complete the final report and upload it to the
Development Experience Clearinghouse by July 31, 2014. We acknowledge the mission’s
management decision.

Recommendation 2. USAID/Ecuador decided to break down leverage information into four
categories in its final report, which will be completed by July 31, 2014. The four categories will
be (1) governmental not including Socio Bosque, (2) governmental meaning Socio Bosque
only, (3) nongovernmental organizations, and (4) private for-profit organizations. We
acknowledge the mission’s management decision.

Recommendation 3. USAID’s Policy Division of the Office of Acquisition and Assistance
decided to revise ADS to distinguish between leverage and cost share, clarify regulations
applicable to both terms, and provide criteria for differentiating between leverage and cost share
by August 30, 2014. We acknowledge the mission’s management decision.




                                                                                                7
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Ecuador’s Sustainable Forests and
Coasts Program was achieving its main goal of conserving biodiversity to benefit residents in
coastal Ecuador and adjacent dry forests and wet tropical forests by establishing long-term
partnerships with local organizations.

The mission awarded Chemonics a cost-plus-fixed-fee completion contract, which began on
June 15, 2009, and was to end on June 14, 2014. As of December 31, 2013, the entire
$15.0 million had been obligated, and $13.2 million had been spent. Additional funds were to be
added to the program in its final months, bringing the total estimated costs to $15.8 million. We
tested the amount spent.

The audit covered activities that occurred from the start of the contract on June 15, 2009,
through December 31, 2013—the first 3.5 years of the program. We reviewed applicable laws
and regulations as well as USAID policies and procedures pertaining to the program, including
ADS 203, 204, 253, 320, and 540; the Biodiversity Policy; Leverage Overview;8 and
supplemental guidance.

In planning the audit, we identified and reviewed relevant controls that USAID/Ecuador used to
manage the program and oversee its activities. These controls included Chemonics’ quarterly
and annual performance reports, performance management plans, and annual work plans. We
also met with Chemonics to obtain status updates, discussed implementation issues, and
conducted field visits to meet with stakeholders. In addition, the auditors examined the mission’s
portfolio review notes and its fiscal year 2013 annual self-assessment of management controls,
which missions are required to perform to comply with the Federal Managers’ Financial Integrity
Act, to determine whether the assessment cited any relevant weaknesses.

The audit team conducted fieldwork from February 3 through February 21, 2014, in Quito and
along the coast of Ecuador. We visited USAID/Ecuador and Chemonics’ offices in Quito and
three of the program’s four intervention areas—the Chongon Colonche area, Guayas Province,
and Reserva Marina Galera San Francisco, pictured in Appendix III.

Methodology
To answer the audit objective, we interviewed USAID/Ecuador’s contracting officer’s
representative, the environment team leader, the mission environment officer, contract
specialists, monitoring and evaluation specialists, the training adviser, and the TIP adviser. We
reviewed the contract and its modifications, work plans, the performance management plan,
8
    http://inside.usaid.gov/idea/gp/leverage-overview, accessed on June 5, 2014.


                                                                                                8
                                                                                           Appendix I


progress reports, financial reports, the midterm evaluation, and other documents. We
interviewed Chemonics’ chief of party, deputy chief of party for programming, the monitoring
and evaluation specialist, and staff from three of the four regions.

Through these interviews and the review of program documentation, the audit team obtained an
understanding of (1) the program’s goals, (2) how performance indicators, targets, and baseline
data were established to measure progress, (3) how the mission verified the quality of the data
that Chemonics reported, (4) how the mission monitored program activities, and (5) whether the
mission was aware of any allegations of fraud or other potential illegal acts or noncompliance
with laws, regulations, and contract terms.

In addition, we performed the following audit tests:

	 Reviewed and tested the performance indicators and targets to determine their
   appropriateness.

	 Reviewed and tested the procedures the mission established to monitor and confirm the
   accuracy of the program’s reported results.

	 Documented and tested compliance with award requirements for leveraging funds, doing
   gender analysis, countering human trafficking, doing branding and marking, and mitigating
   environmental risk.

Together with USAID/Ecuador and Chemonics, we judgmentally selected various activities
along the coast for field visits. Sample selection was based on factors including accessibility and
diversity of activities. We conducted field visits to validate reported results to the extent possible.
Since the testing and site selections were based on judgmental samples, the results and
conclusions related to the analysis were limited to the items and areas tested, and cannot be
projected to the entire population. We believe our substantive testing was sufficient to support
the audit’s findings.




                                                                                                     9
                                                                                        Appendix II



MANAGEMENT COMMENTS 

                                                UNITED STATES GOVERNMENT


                                                Memorandum
DATE:            July 3, 2014

TO:              Van Nguyen /s/, Regional Inspector General/San Salvador

FROM:            Christopher Cushing, USAID/Ecuador Mission Director

SUBJECT:         Comments to USAID/Ecuador's Sustainable Forests and Coasts Program
                 - Draft Audit Report No. 1-518-14-0XX-P, sent June 6, 2014



Thank you for giving USAID/Ecuador the opportunity to respond to the draft report of the Audit
of USAID/Ecuador's Sustainable Forests and Coasts Program, sent to us on June 6, 2014.
USAID/Ecuador appreciates the time and consideration that the audit team invested in
preparing this report.

Below we have listed the three audit findings and recommendations. Following each
recommendation are USAID/Ecuador's comments and suggestions on the draft audit report
for your consideration.

Recommendation 1: We recommend that USAID/Ecuador document the
challenges faced in improving livelihoods in its final evaluation report and
upload the evaluation to the Development Experience Clearinghouse.

We will document the challenges faced in improving livelihoods in the final report for the
project and upload this report to the Development Experience Clearinghouse. Please note
that there will be no final evaluation for the project because of the closing of the project (June
14, 2014), as well as the closing of the USAID/Ecuador Mission (September 30, 2014), in
response to the Government of Ecuador's moratorium on extending existing or beginning new
activities. Please also note that the recommendation does not allege any USAID/Ecuador
non-compliance with required submissions to the Development Experience Clearinghouse.

Recommendation 2: We recommend that USAID/Ecuador,in conjunction with
Chemonics, (1) update the definition of the leverage indicator to include only
resources leveraged during the life of the program, (2) classify nonprofits as
public institutions and for-profits as private institutions, (3) disaggregate private
and public resources leveraged when reporting, and (4) report revised figures in
its final report; and document all four actions.


                                                                                                     10
                                                                                       Appendix II



In the final report for the project, USAID/Ecuador staff will document revised leverage figures
identifying resources leveraged during the life of the program. We will further break down
these figures into four categories: (1) governmental (not including Socio Bosque); (2)
governmental (Socio Bosque only); (3) private non-governmental private for-profit
organizations. Please note that we will report Socio Bosque separately because it
contributed significantly more than other governmental sources.

Recommendation 3: We recommend that the Policy Division of the Office of
Acquisition and Assistance update Automated Directives System Chapters 302
and 303 to include clear definitions and criteria for identifying and classifying
leverage requirements in contracts and assistance agreements outside of formal
Global Development Alliance activities.

This recommendation to amend the Automated Directives System (ADS) sections 302 and
303 is not within the manageable control of USAID/Ecuador. Revisions or additions to the
ADS are within the sole purview of USAID/Washington. We note that the recommendation
does not allege any USAID/Ecuador non-compliance with existing requirements for
leverage. Based on the above, we ask that Recommendation #3 be removed from the final
report or that you accept this response as final Mission action to close out this
recommendation.




                                                                                                  11
                                                                                         Appendix II


Management comments on Recommendation 3 received by e-mail July 16, 2004, on
behalf of Marcelle Wijesinghe, Division Chief, M/OAA/P:

By August 30, M/OAA/P will process revisions to the Automated Directives System 303.3.10.2
that will (1) clearly distinguish between leverage and cost share with clear definitions, (2) clarify
the regulatory environment for both cost share and leverage, (3) provide criteria for identifying
leverage as distinct from cost share and the applicability, if any, of leverage to assistance
instruments.

Since the ADS process takes some time to incorporate changes into any of the chapters, we
need time for that process and also to check what effect, if any, that this change will have on
any related ADS chapters.




                                                                                                  12
                                                 Appendix III 



                      Program Areas in Ecuador




Source: USAID Work Plan.




                                                           13
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
